 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Tl- E ROLE OF THE FEDERAL MATERNA .
     AND CHILD HEALTH BUREAU IN
      PRESCHOOL IMMUNIZATIONS
                    OFFICE OF INSPE~OR            GENERAL

The mission
          of theOfficeof Inspector
                                 General(OIG),asmandatedby Public Law 95-452,
 as

amended,istoprotect           oftheDepartment
                   theintegrity               ofHealthand Human Services’
(HHS)

programs
       aswellasthehealthandwelfare            served
                                  ofbeneficiaries   bythose        Thisstatutory
                                                           programs.

      iscarried
mission        outthrougha nationwide networkof audits,           and inspections
                                                      investigations,
conductedby	threeOIG operatingcomponents:theOffice  of AuditSefices,
                                                                   theOffice   of

Investigations,
            andtheOfficeofEvaluationandInspections.
                                                  The OIG alsoinforms

                                                                    theSecretary

ofHHS ofprogram,andmanagement  problems,
                                       andrecommends coursestocorrect

                                                                    them.


                       OFFICE OF AUDIT SERVICES

The OIGS Officeof AuditServices
                              (OAS) provides
                                           allauditing
                                                     services
                                                           forHHS, either

                                                                         by

         audits
conducting          own audit
              withits              orbyoverseeing
                            resources                workdonebyothers.

                                                 audit                Audits

examine
      theperformanceofHHS programs
                                 and/orits      andcontractors
                                         grantees                   outtheir

                                                            incarrying

respective          andareintended
        responsibilities         toprotideindependent        ofHHS programs

                                                    assessments

            inordertoreduce
andoperations                  abuse,
                          waste,                     andtopromoteeconomyand

                                     andmismanagement

efficiency       theDepartment.

        throughout


                       OFFICE OF INVESTIGATIONS

The OIGS Office   ofInvestigations
                                 (01)conducts
                                            cfiminal,
                                                   ci~l,
                                                       andadministrative
                                                                     investigations

                                                                                of

allegations of wrongdoing inHHS programs ortoHHS beneficiaries
                                                            andofunjustenrichment

                                                                                by
providers.                  efforts
            The investigative                      convictions,
                                  of01 leadtocriminal                   sanctions,
                                                             administrative     or

civilmoneypenalties.            oversees
                      The 01 also           Medicaid
                                        State      fraudcontrol   whichinvestigate

                                                              units            and

prosecute  fraudandpatient abuseintheMedicaid
program.


             OFFICE OF EVALUATION             AND INSPECTIONS

TheOIGS Ofllce   ofEvaluation
                           andInspections  (OEI)~nductsshort-termmanagement

                                                                           andprogram

evaluations       inspections)
            (called            focus
                            that    on iSSUeS of ~n~~ to the Department,
                                                                       theCongress,
and
thepublic.  The findings
                      andrecommendations   contained      inspection
                                                    inthese              generate rapid,
                                                                   reports
accurate, and up-to-date       ontheefficiency,
                      information                          andeffectiveness
                                                vulnerability,          ofdepartmental

programs.   Thisreportwas preparedintheDallas           office
                                                 regional                     ofRalph

                                                              underthedirection

Tunnell, Regional        General
                  Inspector      andCh=terB.Slaughter,  DeputyRegional         General.

                                                                      Inspector

Project
staffi



REGION                                             HEADQUARTERS
Carolyn R.Neuwirth, Project

                          Leader                   MarutaZitans, Program Specialist
Michelle Adams, Program Analyst                    Ann O’Connor, Program Specialist
 Department of Health and Human Services

         OFFICE OF

     NSPECTOR GENERAL





THE ROLE OF THE FEDERAL MATERNAL
   AND CHILD HEALTH BUREAU IN
    PRESCHOOL IMMUNIZATIONS




          OCTOBER   1993   OEI-06-91-01180

              EXECUTIVE                          SUMMARY

PURPOSE

To examine the Public Health Service (PHS) Maternal and Child Health (MCH)
Bureau’s efforts to improve preschool immunizations.

BACKGROUND

Currently, only 57 percent of two-year-olds are appropriately immunized against
vaccine-preventable diseases according to 1991 prelimina~ data from 34 State MCH
programs. During the recent measles epidemics, this age group, primarily urban,
inner-city minority children, accounted for almost half of the reported cases. These
low preschool immunization rates reflect fragmented efforts to deliver immunizations,
the high cost of vaccines, and poor public awareness. Reaction to this situation has
prompted government agencies to expand and further coordinate efforts to improve
immunization rates, with the Centers for Disease Control and Prevention (CDC),
Division of Immunizations, the National Vaccine Program Office (NVPO), and the
MCH Bureau being among the players.

In light of continuing low preschool immunization rates, the President requested a
supplemental appropriation of $300 million for FY 1993 and proposed the
“Comprehensive Child Immunization Act of 1993,” a multi-year initiative, to assure
that all children in the United States are protected against vaccine-preventable
infectious disease by their second birthday.

Both the CDC, Division of Immunizations, and the NVPO have singular missions
related to the prevention and control of vaccine-preventable diseases. Toward this
purpose, CDC receives approximately 99 percent of the Department of Health and
Human Services’ funds designated for immunization-related       activities. The NVPO, in
its charge to bring coherence to a fragmented immunization system, chairs the Federal
Interagency Committee on Immunizations (ICI). The ICI has developed a national
immunization action plan which is intended to coordinate the immunization efforts of
diverse government agencies. By contrast, the mission of the MCH Bureau is broader
in scope and embraces not only the critical concern for immunizations but also the
development of a comprehensive health care system for all mothers and children.
However, the MCH Bureau has recently been given specific immunization
responsibilities through legislation, as well as through its commitments made in the ICI
Action Plan to improve preschool immunizations.

To examine the Bureau’s specific immunization role, we reviewed relevant literature
and legislation, as well as conducted interviews with top MCH Bureau and other PHS
officials, MCH regional program consultants, and public and private sector experts
involved in immunizations. Our review was conducted prior to the announcement of
the President’s new initiatives and reflects the MCH Bureau’s role since passage of the


                                            i

1989 Omnibus Budget Reconciliation Act (OBRA-89) that specified national health
status goals including immunization rates. Nevertheless, this report illustrates how the
MCH Bureau could contribute to the President’s initiatives.

FINDINGS

l’he MCH Bureau Has Not Fully Capitalized On I& Potential To Guide and Diiect State
MCH i?ogram Eflorts To Impve Ihschool Immun&ations.

    �	   The MCH Bureau has not established an explicit, formal immunization
         initiative beyond its emphasis on comprehensive health care.

    �	   The MCH Bureau has not met all its immunization commitments under the ICI
         Action Plan.

         In particular, the MCH Block Grant guidance has not been modified to direct
         State plans or activities to focus upon improving immunization rates.

    �	   Technical assistance has focused on the development of comprehensive
         health care and has not placed an emphasis on improving immunization
         rates.

Re@rem@s    R&ted To % Cdlkction and Repating Of StaLZImmunbtibn               Rakx
Have Been Dijicrd To Imp-

RECOMMENDATIONS

The MCH Bureau should play an important, if limited, role in improving preschool
immunization. Toward this purpose,

PHS should

�    Ensure that the MCH Bureau strengthen its guidance and direction to State MCH
     programs to increase preschool immunization rates in addition to other
     comprehensive care semices.

     �   Specifically, the MCH Bureau could:

         .	    direct States to use MCH Block Grant funds to improve preschool
               immunization rates;

               develop and implement a strategic plan with specific assignments and
               scheduled action steps to strengthen immunization efforts, especially
               for preschoolers;




                                            ii
             develop a system which tracks and fully documents progress under
             the MCHstrategic immunization plan; and

             improve guidance and technical assistance to increase immunization
             rates.

*	 Ensure that the MCH Bureau and the CDC closely collaborate to assure a
   coordinated effort to improve the immunization surveillance, reporting and
   deliveV system.

AGENCY COMMENTS

We solicitedand received
                       cormnentsfrom PHS on ourdraft

                                                   report.PHS concurred
w“thallour recommendationsand isintheprocessofimplementing
                                                         them.


See Appendix B for the full text of the PHS comments.




                                          ...
                                          111

                  TABLE                  OF        CONTENTS

                                                                                                   PAGE


EXECUTIVE     SUMMARY


INTRODUCTION         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


   �   MCHBu~u       Efforts to Improve preschool Immunizations              . . . . . . . . . . . . . . 7


   �Immunization     Reporting Requirement         . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


APPENDICES


   A. Preliminary Immunization Data            . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


   B. Agency Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1

                         INTRODUCTION

PURPOSE

To examine the Public Health Semite (PHS) Maternal and Child Health (MCI-I)
Bureau’s efforts to improve preschool immunizations.

BACKGROUND

Currently, only 57 percent of preschoolers are appropriately immunized according to
 1991 preliminary data from 34 State MCH programsl. This rate falls far short of the
Year 2000 preschool immunization goal of 90 percent2 (see Appendix A). This
discrepancy underscores the United States’ poor ranking worldwide, placing 17th in
immunizing children against vaccine-preventable diseases3; 56th in immunizing
minority children; 15th for polio immunizations; and 49th for polio immunizations for
nonwhite populations (National Institute of Child Health and Human Development
1992). Between 1989 and 1991, the resurgence of reported measles cases was partially
attributed to the failure to appropriately immunize preschoolers. This group, primarily
urban, inner-city minority preschoolers, accounted for almost half of these vaccine-
preventable occurrences. Also, of the 1990 measles cases among preschoolers, more
than one-third of the children were not vaccinated (Center for the Future of Children
1992).

Barriers to timely immunizations, especially for preschoolers, were also brought to
national attention by the 1991 publication of ‘T’he Measles Epidemic: Problems,
Barriers, and Recommendations” or “The White Paper” (National Vaccine Advisory
Council 1991). The National Vaccine Advisory Council (NVAC) report asserted that
the measles epidemic indicated a much larger issue: the inadequacy of the nation’s
health care system to deliver primary and preventive health care sexvices.

Immunizations, besides being a responsible preventive health measure, are also a cost-
effective approach to reducing future health care spending. An estimated $10-$14
are saved in later medical costs for every $1 spent on early childhood immunizations.4

Government agencies are beginning to coordinate efforts to improve preschool
immunization rates. Recent efforts to improve the immunization system are focusing
on more interactive relationships among the nation’s health, income, housing,
educational, and nutrition programs.

The MCI-I Bureau is One of Manv Federal Plavers in Preschool Immunizations

The MCH Bureau, part of the Health Resources and Service Administration (HRSA)
of the PHS, administers the Maternal and Child Health Sexvices Programs, authorized
by Title V of the Social Security Act. The mission of the Bureau is to provide



                                            1

national leadership to develop, administer, coordinate, monitor and support Federal
policy and programs to improve the health of the Nation’s mothers and children.

Federal funds are available to the States, through the Maternal and Child Health
Block Grant, for the provision or the purchase of a broad range of maternal and child
health services. The law sets out a number of purposes for which the States are
authorized to expend appropriated MCH Block Grant funds, including 1) reducing
infant mortality; 2) increasing the availability of prenatal, delivery, and postpartum
care to low-income women; 3) reducing the incidence of preventable and handicapping
conditions among low-income children; 4) providing medically necessary semices to
children with handicaps or children with special health care needs; and 5) increasing
the number of children immunized against disease and receiving health assessments.

Recent amendments through the 1989 Omnibus Budget Reconciliation Act (OBRA-
89) have specified national maternal and child health status goals and objectives that
should be attained by the States through reference to the Department’s “Year 2000”
National Health Objectives.” The law also requires State reports to determine
whether the States are making progress in improving the health status of mothers and
children. These reports are to contain information and data that is essential for an
effective evaluation of both individual State MCH Block Grant programs and the
entire Title V authority. States are required to annually report by class of individuals
seined, on the number of individuals seined under Title V; the proportion of such
individuals who have health insurance; the types of semices provided; and the amounts
spent on each type of service; and information on the status of maternal and child
health in the State, which includes reporting preschool immunization rates?

Year 2000 Immunization Goal

The “Year 2000” objectives identifj immunization and control of infectious diseases as

a high priority. The MCH Bureau has been given specific immunization

responsibilities in OBRA-89 to support the “Year 2000” preschool immunization goal,

as well as to report preschool immunization rates. The MCH Block Grant is one

available resource for State MCH programs to support immunization-related     activities.

For Fiscal Year (FY) 1993, more than $557 million were disbursed to MCH Block

grantees. The proportion of MCH Block Grant funds used for immunization-related

activities is at State discretion.


The MCH Bureau is currently integrating the data reporting requirements into their

more traditional role of providing comprehensive health setices.   Each State MCH

program is required to annually report the proportion of appropriately immunized

two-year-olds. This data is then compiled by the MCH Bureau and submitted to the

Congress, as required by OBRA-89.        -


Additionally, the MCH Bureau has agreed to implement several action steps from an

interagency plan which was developed to coordinate efforts to improve access to

childhood immunizations. These actions are described on page 5.



                                             2
The Centers for Disease Control and Prevention. Division of Immunization,       Plavs a

Maior Role in Preschool Immunizations


The Centers for Disease Control and Prevention, Division of Immunization (hereafter

referred to as CDC), is responsible for leadership and guidance in the prevention and

control of preventable childhood diseases. CDC receives 99 percent of HHS funds

designated for immunization-related activities and its funding levels have significantly

increased during the past five years (U.S. Department of Health and Human Services

January 1992). The CDC administers the Vaccination Assistance Act of 1962, a

Federal grant program, which provides financial and technical assistance to

supplement State and local health department efforts to provide immunizations. FY

1993 funding was more than $349 million, approximately 3.5 times greater than the FY

1988 allocation (U.S. Department of Health and Human Semites May 1992).


CDC is engaged in a myriad of immunization-related activities, including: 1) assisting

States to implement ‘The White Paper” recommendations to improve the diagnosis,

delivery, and efficacy of childhood immunizations; 2) conducting a national public

information campaign on preschool immunizations; 3) expanding efforts to incorporate

hepatitis B into routine infant immunization programs; 4) purchasing additional

vaccines to improve age-appropriate immunization levels; 5) expanding support for

State-based immunization programs; and 6) stockpiling Hib, hepatitis B, and accellur

DPT. Additional CDC immunization-related       activities include:


    .	 Collecting preschool immunization data through the use of retrospective studies
       of school-entry immunization records. “Guidelines for Assessing Vaccination
       Levels of the 2-year-old Population in a Clinic Setting” was published in
       October 1992 and distributed to all State CDC grantees, plus members of the
       Association of Maternal and Child Health Programs (U.S. Department of
       Health and Human Services/Public Health Service October 1992).

    �	   Conducting demonstration projects, e.g., 1) coordinating efforts with the Special
         Supplemental Food Program for Women, Infants, and Children (WIC) and with
         Aid to Families with Dependent Children (/U?DC) to improve recipients’
         immunization levels; 2) providing free immunizations for children up to the age
         of tsvo who live in communities with a high proportion of low-income
         individuals and 3) conducting awareness campaigns to both identify these
         children and inform parents (or guardians) about this service.

    �	   Implementing an Infant Immunization Initiative (I-3) to improve immunization
         levels among very young children. I-3 places a special emphasis on assessment
         and operational research. Major issues concern the magnitude of the problem,
         as well as identifying attitudinal and structural barriers. In the summer of 1992,
         more than $45 million supplemental funds were distributed among 63 State
         immunization grantees, plus twenty-four selected urban areas, to develop local
         Immunization Action Plans (I./W). These plans focus on strengthening the


                                              3
       vaccine delivery infrastructure for preschool immunizations. The IAPs also
       focus on State assessment activities and informational/education projects for
       improving preschool immunizations.

Additional Key Players in HHS and Other Government       & encks

l%e National Vaccine Program Office

The National Vaccine Program Office (NVPO) was established in 19866 and is a part
of the Office of the Assistant Secretary for Health (OASH)/ PHS/ HHS. Its mission is
to bring coherence to a fragmented immunization system. Designated as the national
vaccine policy authority, its FY 1993 budget of $3 million reflects a $5 million dollar
decrease from FY 1992. However, this difference was redistributed between CDC and
the National Institutes of Health (NIH) for expanded vaccine activities (U.S.
Department of Health and Human Services January 1992).

The NVPO coordinates and provides direction for research conducted by NIH, CDC,
the Office of Biologics Research and Review of the Food and Drug Administration
(FDA), the Department of Defense (DOD), and the Agency for International
Development.     Other responsibilities of the NVPO include 1) development of an
annual National Vaccine Plan (NVP)7 and 2) implementation of some of the National
Vaccine Iniurv Com~ensation Pro~am’s (NVICP)8 statutory provisions. Committees
directly related to the NVPO are 1) the National Vaccine AdvisoV Committee and 2)
the National Vaccine Program Interagency Group.9

Federal Interagency Committee on Immunization (ICI)

The ICI was formed in early 1991 and is chaired by the NVPO Director. The
committee has developed a comprehensive Action Plan released May 11, 1992. The
plan includes 120 action steps to be implemented between 1991 and 1995. Although it
does not have oversight authority to enforce the Action Plan, ICI monitors progress
under the plan through regular reports to the Assistant Secretary for Health.

ICI representatives from HHS are the NVPO, CDC, HRSA (which includes the MCH
Bureau), Indian Health Service (IHS), the Assistant Secretary for Planning and
Evaluation, the Office of Health Planning and Evaluation, the Office of Minority
Health (OMH), Office of the Surgeon General (OSG), NIH, Administration for
Children and Families (ACF), and the Health Care Financing Administration (HCFA).
Other government agencies represented are the Department of Agriculture (USDA),
the Department of Education (DoE), and the Department of Housing and Urban
Development (HUD), as well as a liaison from the NVAC. Directly responsible for
implementing the Action Plan are HRSA (which includes the MCH Bureau), CDC,
ACF, HCF~ IHS, NVPO, OMH, OSG, NIH, DoE, HUD, and USDA.

MCH Bureau immunization efforts under the Action Plan include: 1) providing
technical assistance to support State and local health department immunization


                                            4
programs; 2) coordinating with the CDC and State health officers to conduct regional

workshops for State agencies involved in activities to improve preschool

immunizations; 3) working with the Healthy Start program on immunization activities,

including a national public education campaignlO; 4) modi&ing MCH Block Grant

guidance, as well as State annual reporting requirements, to specifically focus on plans

and activities to improve State immunization status; 5) working with the Association of

Maternal and Child Health Programs (AMCHP) network and Department of Health

and Human Service (HHS) regional office staff to determine barriers to improving

immunization status; 6) disseminating “Standards for Pediatric Immunization

Practices;” 7) working with designated State MCH Program directors to identi~

barriers to developing a partnership with health care provider organizations; 8)

reviewing current approaches for increased provider participation to deliver

immunizations; 9) reviewing MCH Block Grant applications to identify effective

immunization program activities; 10) working with the National Conference of State

Legislatures (NCSL) to increase awareness of immunization status and problems and

possible legislative remedies; and 11) encouraging State and local governments to

mandate appropriate immunizations prior to enrolling children in licensed day care

centers (Interagency Committee on Immunizations 1992).


Barriers to Immunizimz preschoolers


Several barriers to immunizing preschoolers have been documented (Orenstein,

Atkinson, Mason, and Bernier 199Q National Vaccine Advisory Committee January

 1991). First, there are funding and/or logistical barriers, including limited clinic

staffing and service hours, as well as inaccessible clinic locations. Second, there are

policy barriers, such as appointment-only service systems which require prior physical

examinations, physician referrals, or enrollment in comprehensive care well-baby

clinics, and financial screening and/or charging fees to administer vaccines. Third,

perceptual barriers, such as fear of adverse reactions and low parental priority to

immunize may also impede immunization. Other factors mentioned are low

educational attainment of either parent, large family size, low socioeconomic status,

nonwhite identity, reliance on public clinics as the immunization source, young

parental age, single parenthood, lack of prenatal care, and late start of the

immunization series.


To address these barriers, “The White Paper” recommends: 1) making immunization

services more readily available; 2) improving the management of immunization

delive~, 3) creating an ongoing measurement of children’s immunization status; 4)

implementing a two-dose schedule for measles, mumps, and rubella (MMR); 5)

establishing a revolving fund for outbreak control; 6) gathering more information

about the various vaccine-preventable diseases, and 7) planning a future strategy to

improve vaccine delive~.





                                            5

Presidential   Initiatives

In light of continuing low immunization rates, the President requested a supplemental
appropriation for FY 1993 and sent the “Comprehensive Child Immunization Act of
1993” to the Congress on March 30, 1993. The goal is to assure that all children in
the United States are protected against vaccine-preventable infectious diseases by their
second birthday. This legislation introduced a new collaborative partnership among
parents and guardians; health care providers; vaccine manufacturers; and Federal,
State and local governments to immunize preschoolers.

METHOIXMXIGY

Several steps were involved in determining what Federal MCH Bureau and MCH
regional office plans, guidance, technical assistance, monitoring mechanisms, and
collaborative agreements are in place to improve preschool immunizations. Our
methodology included: 1) reviewing relevant literature and legislation; 2) consulting
either through either telephone or on-site intemiews with public and private sector
experts involved in immunizations; 3) conducting in-depth interviews with top MCH
Bureau management and staff involved with immunizations, as well as with other top
PHS officials; 4) conducting telephone interviews with all MCH regional program
consultants; and 5) doing a content analysis of all documentation provided by the
MCI-I Bureau and MCH regional program consultants, which included reviewers’
comments on the FY 1993 MCH Block Grant applications. Our review was conducted
prior to the announcement of the President’s new initiative and reflects the MCH
Bureau’s role since passage of OBRA-89 that specified national health status goals
including immunization rates. Nevertheless, this report illustrates how the MCH
Bureau could contribute to the President’s initiatives.




                                            6

                                 FINDINGS


THE MCH BUREAU HAS NOT FULLY CAPITALIZED ON ITS POTENTfAL
TO GUIDE AND DIRECI’ STATE MCH PROGRAM EFFORTS TO IMPROVE
PRESCHOOL IMMWWZATIONS.

b	   lhe AUCHBureau has not established an expw fond         immunimtion initiative
     beyond its emphash on comprehensive heakih care.

The MCH Bureau has some immunization projects underway. For example, the
Bureau has specifically contracted for two surveys that will be used to identify State
MCH program immunization activities. These include: 1) the AMCHP’S survey of
State Title V program activities, which include immunization-related activitiesll and
2) CityMatCH’s survey of 177 urban health departments about their immunization
sexvices12. Also, through the cooperative agreement with NCS~ several
immunization-related   publications have been produced. The NCSL also held a
roundtable discussion at its 1992 annual meeting which involved immunizations.

Nevertheless, the Bureau, in its effort to emphasize development of comprehensive
systems of care for children, has not established an explicit, formal immunization
initiative to focus priorities and efforts for expanded immunization responsibilities.
The Bureau has not developed an immunization plan or strategy beyond its activities
included in the ICI Action Plan, giving the impression that improving preschool
immunizations is not a program priority.

The MCH Bureau has a fragmented approach to delegating responsibilities for
immunization-related  activities, with these being split between MCH Bureau divisions.
One division deals with program support and another focuses on data collection and
analysis. We found a lack of coordination and communication among these different
programmatic divisions.

There are a number of potential opportunities the MCH Bureau can use to enhance
immunization efforts. For example, the Bureau has entered into a number of
cooperative agreements for the purpose of sharing information and collaborating with
organizations representing health policymakers at all levels of the private and public
sectors. Although broad in scope, these cooperative agreements, collectively known as
the Partnership for Information and Communication (PIC), in the future could
incorporate specific immunization activities.13




Purported efforts to implement the MCH Bureau’s portion of the Action Plan were
outlined in a September 1992 progress report to the ICI. However, the MCH Bureau
could not document some of these activities, particularly for the two action steps


                                             7
involving the BlockGrant. First, MCH Block Grant guidance has not been modified
to specifically direct State plans or activities to focus upon the improvement of
immunization rates beyond immunizations as a part of the primary care system.
Secondly, reviewers of the Block Grant have not been instructed to identify effective
immunization program activities.

Additionally, the MCH Bureau agreed to conduct regional preschool immunization
workshops for State agencies in conjunction with CDC. The MCH Bureau now
reports that alternative means of informing and providing technical assistance are
being used, since initial funding was not forthcoming. These alternative actions have
been earned out in less than half of the MCH regions (four regions). Activities
include conducting a two-day statewide conference in one of the regions; serving on a
State committeetodevelopan immunization         plan,aswellasaccompanying
    CDC
regional staff duringsite  visitstoimmunization  granteesintwo oftheregions;
   and

workingwithStates      todeveloptheir CI.lCIrnrnunizationActionPlans,   inaddition
to

workingon otherCDC immunization
       plansinanotherregion.


w	 Technical awiwmce has f~ed      on the developnumt of comprehensive heakkhcare
   and has not pkhced an ernphasir on impmving immunkation mtes.

Technical assistance regarding immunizations has been minimal. For example, the

MCH Bureau reported that telephone contact is the way they most often provide

technical assistance to regional offices on preschool immunizations. This contact is

usually done in response to questions on immunization schedules. MCH regional

offices also reported infrequent and primarily informal contact with the MCH Bureau

for technical assistance on immunization-related issues. The MCH Bureau has

attempted to address specific issues on an individual basis through a memo to the

requesting regional office. Regionwide immunization memos are also distributed, but

in the past, have primarily focused on the developmentof Head Start immunization

policies.


The MCH regional offices also reported limited technical assistance to the States,

relying primarily on telephone and written communications. Restricted travel funds

are said to constrain many technical assistance activities. Regional immunization

technical assistance has almost exclusively focused on Head Start. Between 1991-1992,

all MCH regional offices reported either on-site or telephone Head Start

immunization contacts, ranging from as few as four to as many as 69. However, it

should be noted that the interagency Head Start training and technical assistance

agreement supporting these activities expired on September 30, 1992.


With respect to the immunization reporting requirement, seven of ten MCH regional

offices are providing technical assistance. Of these seven, three regional offices met

with key State MCH persons for pre-application technical assistance; one identified

consultants for State-level meetings; three held some type of conference for State

agencies involved in immunizations; one used conference calls to the States; and five

provided technical assistance via telephone, but only upon request. As for technical



                                            8
assistance to help States focus plans or activities to improve immunization status, only

two of ten MCH regional ofllces reported providing any technical assistance.


REQUREMHWS    RELATED TO THE COLLE(H’ION AND REPORTING OF

STATE MMUNIZATION   RATES HAVE BEEN DIFFICULT TO IMPLEMENT.


The OBRA-89 requirement for State MCH programs to report preschool

immunization rates duplicates the extensive, ongoing CDC efforts to collect national

preschool immunization data. All CDC immunization grantees, which includes all

States, are required to conduct retrospective surveys of school-ent~ immunization

records. CDC also encourages grantees to conduct clinical assessments of preschool

immunization rates, using recently published methodological guidelines.


However, the State MCH programs are required to report preschool immunization

rates. Toward this end, the MCH Bureau has contracted with the Public Health

Foundation (PHF) to assess States’ capacity to collect, process, analyze, and report

data for MCH programs, which includes immunization data. PHF’s Project CAN-DO

(The Project for Capacity Assessment and Needs Determination for OBRA ’89) will

include a self-assessment of each State’s current data capacity, along with descriptions

of current data utilization for resource allocation, evaluation and planning purposes.

A workbook will be developed and used by the MCH Bureau and MCH regional

offices to prioritize areas for future technical assessment.


Currently, the MCH Bureau has only included minimal reporting guidance in its Block

Grant packet developed to assist States with their grant applications and amual

reports. Only in the packet’s appendices are three cursory reporting references

mentioned -- the probable source of data (i.e., State program data), the statutory

citation (i.e., Section 506...), and the program component in which to report the

information (i.e., program components A and B).


Within MCH regional offices, nine out of 10 said these guidance packets were their
only source of instruction on how to assist States with the immunization reporting
requirement.   The remaining regional office could not recall any specific guidance
being given at all. When asked about training in this area, six out of ten MCH
regional offices mentioned they had attended a national data conference held in
January 1992 addressing problems related to the OBRA-89 reporting requirements.
Of these six, only one received any other training related to this area.

Overall, very little systematic assistance has been provided to States to help ensure the
accuracy, reliability, and comparability of data on State immunization rates.




                                             9

                     RECOMMENDATIONS


All resources in HHS which can contribute to achieving increased immunization levels
in children should support the President’s initiatives. The MCH Bureau’s mission is to
ensure a comprehensive health care system for all mothers and children, and
immunization is a cornerstone of such a system. While the MCH Bureau operates
under block grant restrictions with limited resources, steps can be taken to ensure the
Bureau’s full contribution to preschool immunization efforts and to the President’s
goal of immunizing all two-year-olds. The MCH Bureau should provide leadership,
direction, guidance, and technical assistance for preschool immunizations to State
MCH programs.

PHS should:

�	   Ensure that the MCH Bureau strengthen its guidance and direction to State
     MCH programs to increase preschool immunization rates in addition to other
     comprehensive care semices.

     .   Specifically, the MCH Bureau could:

              direct States to use MCH Block Grant funds to improve preschool
              immunization rates. States should compare current rates with the
              “Year 2000” immunization goal of 90 percent, as specified in the
              MCH Annual Report guidance material. MCH Block Grant
              applicants should use this information to develop an action plan to
              reach and/or maintain preschool immunization rates of at least 90
              percent. Their progress could then be monitored through the Annual
              Report review process. States should also include other relevant
              information collected from MCH/CDC support sumeys.

         .	   develop and implement a strategic plan with specific assignments and
              scheduled action steps to strengthen immunization efforts, especially
              for preschoolers. The strategic plan should 1) incorporate all of the
              Bureau’s ICI Action Plan commitments; 2) identi& specific Bureau
              staff responsible for each action item; 3) specify the frequency and/or
              time table for each action item; and 4) identify MCH Bureau staff as
              liaison(s) with ICI and CDC.

              develop a system which tracks and fully documents progress under the

              MCH strategic immunization plan. Equally important to developing a

              strategic plan is to ensure that the plan is being implemented. The

              tracking system would be a mechanism to achieve this goal.

              Complete documentation for all completed items should be

              maintained.




                                               10

       .     improve guidance and technical assistance to increase immunization
             rates. Encourage MCH regional offices to develop regional and
             State-level task forces to emphasize common goals, especially
             improving preschool immunizations. MCI-I officials should
             reciprocally participate with other agencies involved with
             immunization in such activities as reviewing grants, annual reports,
             and demonstration project applications.

�	   Ensure that the MCH Bureau and the CDC closely collaborate to assure a
     coordinated effort to improve the immunization surveillance, reporting and
     delivery system.

        .	   Data collection of preschool immunization rates is already being done
             by CDC immunization grantees. The MCH Bureau should actively
             collaborate with the CDC regarding the collection, utilization, and
             reporting of preschool immunization data. MCH data needs should be
             conveyed to CDC on an ongoing basis.

       .	    The President’s initiative continues to support rebuilding the
             infrastructure. CDC’S local immunization action plans (IA.Ps) provide
             support to communities for improving their vaccine delivexy system.
             To ensure coordinated planning, the IAPs call for enlisting the active
             participation of a State’s primary care association and similar groups
             involved in primary care. The MCH Bureau should collaborate with
             the CDC to assure that all State MCH programs are actively involved
             in the development and implementation of the IAPs.


SUMMARY OF AGENCY COMMENTS                   AND OIG RESPONSE

We received comments from PHS on the draft report. The complete text of the PHS
comments are contained in Appendix B. PHS concurred with the two OIG
recommendations shown above and is in the process of implementing them.

It should be noted we have excluded the recommendation contained in the draft
report about PHS technical assistance for immunizations to ACF’S Head Start
program and its grantees. ACF has decided to coordinate its health technical
assistance activities for Head Start through the same mechanisms they use to deliver
technical assistance for education, social services, and parents. However, PHS has
expressed a willingness to provide technical assistance to the Head Start program in
regard to public health matters if requested in the future by ACF.




                                            11

                                EN DNOTES


1.The first State MCH Annual Reports requiring data on preschool immunizations
were reviewed in September 1992. The mean value of 57 percent excludes the
territories of American Samoa, Northern Mariana Islands, Federated States of
Micronesia, Guam, Marshall Islands, Paulau Islands, and the Virgin Islands. Of the
territories, only one provided data, reporting a preschool immunization rate of 99
percent (see Appendix A).

2. The Maternal and Child Health Program has adopted 28 goals derived from, or
consistent with, Healthv Peo~le 2000: National Health Promotion and Disease
Prevention Objectives. MCH goal #10 is to increase preschool immunizations to at
least 90 percent.

3. As recommended by PHS’S Immunization Practices Advisory Committee (ACIP),
preschool immunizations should include: 1) Diptheria/Pertussisnetanus     [DPTJ; 2)
Polio -- live oral polio drops [OPVl or [Inactivated] polio vaccine shots [IPVJ; 3)
Measles/Mumps/ Rubella [MMR]; 4) Hemophilus Conjugate Vaccine [HIB]; and 5)
Hepatitis B Vaccine [HBVJ.

4. Some of the various estimates of the ratio of receiving immunizations to the
reduction of future health care costs are $1:10 (National Institute of Child Health and
Development 1992); $1:11.90 (Southwest, an Aetna Plan 1993); and $1:14 (U.S.
General Accounting Office June 1992).

5. On a State-wide basis, OBRA-89 requires information about the following indicators
of the status of maternal and child health in each State: 1) the rate of maternal
mortality, neonatal death, perinatal death, the number of children with chronic
illness/type of illness; 2) the proportion of infants born with fetal alcohol syndrome; 3)
the proportion of women who do not receive prenatal care during the first trimester of
pregnancy and 4) the proportion of children, who at their second birthday, have been
vaccinated against each of measles, mumps, rubella, polio, diptheria, tetanus, pertussis,
Hi% meningitis, and hepatitis B [Section 6504 (a)(2)(B)(ii)(I-VIII)].

6. The National Vaccine Program was authorized in 1986 through P.L. 99-66, Title
XXI of the Public Health Services Act, Subtitle 1, Sections 300aal - 300aa4.

7. The purpose of the NVPO annual National Vaccine Plan is to set priorities
related to vaccine development and distribution, indicate ways to maximize resources,
and describe collaborative approaches among involved agencies and departments.

8. The National Vaccine Injuxy Compensation Program (NVICP) is separate from the
National Vaccine Program (NW). The NVICP is responsible for compensations paid
for a vaccine-related injury or death. The Office of Evaluation and Inspections, Office



                                            12

of Inspector General, Department of Health and Human Services is currently studying

the NVICP (“The National Vaccine Injury Compensation Program: A Review”, OEI-

02-91-01460). However, the NVPO is involved in the development of public

awareness materials concerning risks associated with immunizations; collection and

analysis of data about adverse vaccine-rela+ed events; and oversight of studies

concerning childhood vaccines and subsequent adverse reactions.


9. The National Vaccine Adviso~ Committee (NVAC) advises the NVPO Director
on all aspects of the program. It is comprised of 15 voting members, including the
chair, and 5 nonvoting members. The 15 voting members represent individuals from
such areas as vaccine research, manufacturers of vaccines, physicians, members of
parent organizations concerned with immunizations, representatives of State/local
health agencies or public health organizations. The five nonvoting members represent
the Director of the NIH; the Commissioner, FDA, the Director, CDC; the Agency for
International Development; and the DOD.

The National Vaccine Program Interagency Group (IAG) makes recommendations
regarding national vaccine policy and operational issues to the Assistant Secretaq for
Health. The IAG is comprised of senior representatives from the Agency for
International Development, CDC, DOD (who are responsible for immunizing military
persomel), Food and Drug Administration, and the NIH.

10. As of October 1, 1992, the Healthy Start Program became a part of the MCH
Bureau. The Healthy Start Initiative is a demonstration project in which 15 urban and
rural communities with infant mortality rates of at least 1.5 times the national average
are targeted for Federal funding. In May 1992, a national public information and
education campaign was begun.

11. The Association for Maternal and Child Health Programs (AMCHP) conducted a
survey of selected preventive and primary care semices for children and adolescents
supported through each state’s Title V program during FY 1991. One section of the
survey asks specific questions about immunizations services, which include current
policies, tracking, coordination with other agencies, and perceived barriers to full
immunizations.

12. CityMatCH conducted a survey of 177 urban health departments in areas with a
population greater than 100,000. They are asking about such immunization services as
administration of vaccines; purchase and distribution of vaccines; outreach and
education; barriers to age-appropriate immunizations; activities to assure age-
appropriate immunizations; and innovative approaches.

13. The Partnership for Information and Communication (PIC) cooperative

agreements include such health care policy groups as the National Governors’

Association, the National Conference of State Legislatures (NCSL), the Association of

State and Territorial Health Officers, the Association of Maternal and Child Health

Programs, the National Association of County Health Officers, the U.S. Conference of




                                           13

Local Health Officials, CityMatCH, the Health Mothers/Healthy   Babies Coalition, an
the Washington Business Group on Health.




                                          14
                         BIBLIOGRAPHY


American Academy of Pediatrics. 1991. Repoti of the Committee of Infectious
 Dkeases, 22nd Edition (Z%e Red Book). Elk Grove, IL.: American Academy of
 Pediatrics.

Association of Maternal and Child Health Programs.     1992. AMCHP LJPDIIT-ES:
 NOVEMBER 1992. Washington, D.C.

Association of Maternal and Child Health Programs. February 1991. Meeting the
 Challenge: A Report on the First State I?rogramApplications for Title V as Amended by
 OBRA ’89. Washington, D.C.

Center for the Future of Children. 1992. “Health Care Services for Children and
 Adolescents.” 7he Future of ChiZdren 2 (Number 2, Winter) :58-77.

Interagency Committee on Immunizations. May 1992. Achon Plan to Improve Access
  to Immunization Services. Washington, D.C., National Vaccine Program.

Maternal and Child Health Bureau. 1992 MCH Block Grant Guidance, Draft.
 Rockville, Maryland: PHS/HRSA/MCHB.

National Conference of State Legislatures.    1991. Maternal and Child Health Care
 Legislation: 1991. Denver, CO.

National Institute of Child Health and Human Development. October 5, 1992. “Are
 We Protecting Our Children’s Future?” 1992 Child Heal~h Day Information Packet.

National Vaccine Advisory Committee. January 8, 1991. me Measles Epidemic:
 l%oblerns, Bam”ers, and Recommendations [?%e Wtite Pauer~. Washington, D.C.:
 National Vaccine Program.

Omnibus Budget Reconciliation Act of 1989 (P.L. 101-239). December 19, 1989:103
 STAT. 2273 -2285’’Subtitle C--Maternal and Child Health Block Grant Program,
 Section 6501 -6510.” United States Code: Congressional and Administrative News,
 Volume 3: Legislative Hirto~ for the 10lst Congress--First Session. St. Paul, MN: West
 Publishing Co.

Orenstein, W.A., W. Atkinson, D. Mason, and R.H. Bemier. 1990. “Barriers to
 Vaccinating Preschool Children.” Journal of Health Care for the Poor and
 Uruienerved 1 (No. 3, Winter) :315-330.

Southwest, an Aetna Plan. 1993. Healthwzke Today Newsletter. Irving, Texas:
  Southwest, an Aetna Plan.



                                             15

U.S. Department of Health and Human Services. January 29, 1992. The Fiscal Year
 1993 Budget. Washington, D.C.

U.S. Department of Health and Human Services/Office of Inspector General/Office of
 Evaluations and Inspections. l%e National Vaccine Insurance Compensation Program:
 A Review (OEI-02-91-01460). Work in progress.

U.S. Department of Health and Human Services/ Public Health Semite. Healthy
 People 2000:National Health Promotion and Dkease Prevention Objectives.
 Washington, D. C.: Government Printing Office.

U.S. Department of Health and Human Services/ Public Health Service. May 11,
  1992. HHS News. Atlanta, GA: CDC Press Office.

U.S. Department of Health and Human Services/ Public Health Service. August 31,
  1992. HHS News. Atlanta, GA. CDC Press Office.

U.S. Department of Health and Human Services/ Public Health Service/Centers for
 Disease Control and Prevention. October 1992. Guidelines for Assessing Vaccination
 Levels of the 2-year-old Population in a Clinic Sem”ng. Atlanta, GA: Division of
 Immunizations.

U.S. Department of Health and Human Sewices/Public Health Service/Health
 Resources and Services Administration. January 1992. HRSA Profi/e. Washington,
 D.C.

U.S. Department of Health and Human Services/Public Health Semite/Office of
 Health Communications/Communications     and Service Division. 1991. The “Healthy
 Difference” I+ograrn Guide. Washington, D.C.

U.S. Department of Health and Human Services/Public Health Sewice/Office of the
 Assistant Secretary for Health. 1990. Secreta@s Program Directions Regarding PHS
 Immunuation Initiatives. Washington, D.C.

U.S. Department of Health and Human Services/Public Health Service/Office of the
 Asistant Secretary for Health. April 6, 1992. Quarter@ Summaty Repons: Z7ze
 Secreta&s Program Directions Regarding PHS Immunization Initiatives. Washington,
  D.C.

U.S. General Accounting Office. May 1992. Federally Funded Heahh Services:
 Infonnahon on Seven programs Serving Low-Income Women and Children.
 Washington, D.C.: U.S. General Accounting Office (GAO/HRD-92-73FS).

U.S. General Accounting Office. June 1992. Childhood Immunizations: Oppotlunihes
 to Improve Immuntiahon Rates at Lower Cost (Testimony). Gaithersburg, MD:
  U.S.General Accounting Office (GAO/T-HRD-92-36).


                                         16
                          APPENDICES

Appendix A Preliminary Immunization   Data

Appendix B Full Text of Agency Comments
                    APPENDIX                A


PRELIMINARY        MMUNLZATION        DATA As of September   1992*


                 PERCENT OF TWO-YEAR-OLDS WITH
                    COMPLEIE IMMUNEATfONS
              =ATES              19X)                1991
     Alabama                                      72.4
     Alaska                                       57.5
     Arizona                                       46
     California                  48.2
     Colorado                    60.8
     Connecticut                                   64
     Delaware
     District of Columbia

     Florida
                                      63.2
     Georgia
                                      68
     Hawaii

     Idaho
                                        60
     Illinois

     Indiana
                                      56
     Iowa
                                         51.7
     Kansas                          51.3
     Kentucly                                      50.3
     Louisiana                                      56
     Maine                                         63.2

     Maryland                        56.6
     Massachusetts
     Michigan                                      60.1
     Minnesota                                     61.4

     Mississippi                                    43



                              A-1

                 PERCENT OF TwO-YEAR-OLDS WITH
                    COMPLIZIE IMMUNUATIONS
                 STATES               1990               1991
         Missouri                                      43
         Montana               I                 I
         Nebraska

         Nevada

         New Hampshire
                                65.8

         New Jersey
                     50.2

         New Mexico

         New York

         NorthCarolina
                                33.3

         NorthDakota
                                  68

         Ohio
                                         51.9

         Oklahoma
                                      33

         Oregon
                                        53

         Pennsylvania
                                 65.6

         RhodeIsland
                                   62

         SouthCarolina
                                52.2

         SouthDakota
                                  55.8

         Tennessee
                                    74.4

         Texas
                          50
         Utah
                                         36.5
         Vermont
                                      83.6
         Virginia
                                     68.8
         Washington
                                   51.2
         West Virginia

         Wisconsin
                                    58.8
         Wyoming
                                      68.3

Maternal
      andChild    Health   Bureau,  Public Health Serviu, Department
                                                                  ofHealth

                                                                         andHuman

Services.

      *(All U.S. tenitories are excluded porn the chart).



                                   A-2
APPENDIX       B

  AGENCY COMMENTS
PUBLIC HEALTH SERVICE




        B-1
      0(X”I1993



Frbm:      Assistant   Secreta~  for Health
.                                General    (OIG) Ilraft Report “The
Sub ject:	 Of ff-ce of Inspector Maternal and Child Health Bureau
           Role of the Federal               OE1-06-91-01180
           in Preschool Immwizations~”


TO:        Acting    Inspector        General,      OS
                                                                 to the subject

                    Public       Health   Service        response
                                                         report’s recommendations
Attached is the    We concur with the
OIG draft report.describe the actions we have taken or plan to

and our cements

take to implement the .


                         ~~.g,$


 Attachment

     PUBLIC HEALTH SERVICE (PHS) COMMENTS ON THE OFFICE OF

 lNSPECTOR GENE-   fOIG\ DRAFT REPORT “THE ROLE OF THE FEDEm

 MATERNAL AND CHILD HEALTH BUREAU IN PRESCHOOL IMMUN1~ATIONS~”

                        OEI-06-91-01180



General     Comments

Immunization     is a high priority  of the Maternal   and Child
Health    Bureau   (MCHB ). This is underscored by MCHB’S selection
of an immunization objective as one of the key national

maternal and child health (MCH) objectives         for the year 2000.

increasing immunization rates is absolutely essential for the

delivery of adequate primary care. MCHB continues to support

the development of systems that assure that immunization i.sa

critical component of comprehensive primary care.


OIG Recommendation


1.	       The PHS should ensure that the MCHB strengthen its

          guidance and direction to State MCH programs to incr~ase

          preschool immunization rates in addition to other

          comprehensive care services.


PHS Comment


We concur with this recommendation and with the four actions
which the OIG report suggests that MCHB could take to fulfill
it. The proposed revision to the MCH Block Grant application
and annual report guidance, currently undergoing reviewt
requires that States focus on programming to achieve the
Healthy People 2000 immunization goal. In addition, the
“Annual Report Requirements for the MCH Block Grant Review

Criteria” currently require that State applicants provide

immunization outcome information describing the proportion of

children who, at their second birthday, have been vaccinated

against measles, mumps, rubella, polio, diphtheria~ tetanus~

pertussis, Hib, and hepatitis B by racial and ethnic group.

The Health Resources and Services Administration (HRSA)

believes that the changes in the Block Grant review process

will fully address the concerns raised by OIG.

OIG Recommendation


2.	       The PHS should ensure that the MCHB and the Centers for
          Disease Control and Prevention (CDC) closely collaborate
          to assure a coordinated effort to improve.the immunization
          surveillance, reporting and delivery system.

PHS Comment

We concur. By law, the MCHB must collect data from each State
Title V program [Social Security Act, Title V] concerning     the
immunization status of two year old children.  MCHB   is  working
                                                                                           2



with    the States      to integrate     the Title     V reporting       requirements

into    a single      common reporting      system   that    will   satisfy

numerous     reporting      requirements      and assure      that  children      and

families     actually     receive     comprehensive      health    services.       MCHB

also provides technical assistance to States through grants or

the MCHB’S Maternal and Child Health Information Resource

Center.


The omnibus         Budget   Reconciliation          Act of 1989 (OBRA 89) Title            v

State     reporting      requirements        related      to immunization       data

collection        and reporting       activities        are being     coordinated     with

CDC’S efforts         at both the State           and local    levels.       The MCHB has

convened and chairs a Federal Interagency work group on MCH

data. This group includes representatives from CDC, the

Administration for Children and Families (ACF), the Health Care

Financing Administration, and the Department of Education. The

first two projects of this work group are to standardize

definitions and simplify reporting requirements.         .—


In addition, MCHB and CDC work jointly to develop reporting

strategies to systematically assess immunization status in a

timely, recurring basis. Together they have sponsored two

State MCH data meetings to strengthen coordination and problem

solving, and they support data collection efforts and reporting

requirements under development. by the Public Health Foundation.

MCHB and CDC continue to woxlc together to coordinate efforts to

meet the OBRA 89 immunization reporting requirements and the

Department’s Healthy Pec@e   2000 objective and goal related to

immunization.


We agree with OIG that it is essential for State MCH programs

to be involved in the development and implementation of CDC’S

local immunization action plans (IAP). We are aw=e of manY

directors of State MCH programs or programs for children with

special health care needs who have been involved in the

development and implementation of the IAls Uqder their

jurisdiction.   MCHB will assess whether all States have
appropriately involved their Title V programs in the
development and implementation of IAPs and will  work with CDC
to assure participation if they have not.

Finally, to improve surveillance and data collection efforts~

14CHBhas convened a panel of experts with representatives from

State and local governments, foundations, and universities to

improve MCH analysis for qualitative and quantitative problem

solving. MCHB has worked with New York City, the Western

Governors’ Associationr the Robert Wood Johnson Foundation, and

the Pew Charitable Trust to develop an immunization tracking

system and/or “smart card” to assist local providers in

assuring that children receive proper age-appropriate

immunizations.

                                                                3



OIG Recommendation


3.	   The PHS and the ACF should develop an acceptable
      arrangement that assures technical assistance for
      immunizations is provided to the Head Start program and
      its grantees.

PHS Comment

The ACF has responsibility for administering the Head Start
program and PHS involvement is at the request of ACF. PHS is
prepared to assist ACF by providing technical assistance and
expertise in public health matters. We believe that the five
year interagency agreement between ACF and MCHB was an
excellent demonstration of how two Federal programs~ working
collaboratively, could provide the best services of each
program to improve, promote and maintain the health of high-
risk infants, preschool children and their families.      ._
It is our understanding that the Head Start Bureau (HSB) of ACF

had decided to coordinate its health technical assistance

activities through the same mechanism they use to deliver

technical assistance for education, social sexwices, and

parents.   We respect their prerogative to discharge their

responsibilities in the way they see fit. However, should HSB

decide to re-negotiate the interagency agreement with MCHB

(that expired on September 30, 1992) to provide the health

component of the Head Start program through a Federal, State

and local network for technical assistance and training, MCHB

is willing to work with them to reach a mutually satisfactoq

agreement.





                                                                     —
